Report No. DODIG-2013-097                   June 26, 2013




      Improvements Needed in the Oversight of the
     Medical-Support Services and Award-Fee Process
           Under the Camp As Sayliyah, Qatar,
        Base Operation Support Services Contract
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACA                   Army Contracting Agency
ACC-RI                Army Contracting Command–Rock Island
ACO                   Administrative Contracting Officer
AFDO                  Award-Fee-Determining Official
AFP                   Award-Fee Plan
AFRB                  Award-Fee Review Board
AR                    Army Regulation
ASG-QA                Area Support Group–Qatar
COR                   Contracting Officer Representative
DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulation
MEDCOM                Army Medical Command
MHSM                  Medical Health Service Manager
OCI                   Organizational Conflict of Interest
PM                    Performance Monitor
PWS                   Performance Work Statement
QBOSS                 Camp As Sayliyah Installation Base Operations Support Services
TMC                   Troop Medical Clinic
                                      INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                 ALEXANDRIA, VIRGINIA 22350-1500


                                                                                             June 26, 2013

MEMORANDUM FOR COMMANDER ARMY MATERIEL COMMAND
               COMMANDER, U.S. ARMY MEDICAL COMMAND
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improvements Needed in the Oversight of the Medical-Support Services and Award-Fee
         Processes Under the Camp As Sayliyah, Qatar, Base Operations Support Services Contract
         (Report No. DODIG-2013-097)

We are providing this report for your information and use. DoD officials did not effectively administer
the medical services functional area and award-fee process of the Qatar, Base Operations Support
Services contract. In addition, contracting officials did not verify that contracted physician assistants
were medically supervised and erroneously allowed the Area Support Group–Qatar command surgeon to
supervise contractor physician assistants under a non-personal services contract. Army Officials also did
not adequately document and justify an award fee of approximately $1.5 million paid to the contractor
and the contractor received the award fees even though required critical positions were unfilled.

We considered management comments on a draft of this report when preparing the final report. The
comments conformed to the requirements of DoD Directive 7650.3 and left no unresolved issues.
Therefore, no additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8905
(DSN 664-8905).



                                                     Amy J. Frontz
                                                     Principal Assistant Inspector General
                                                     for Auditing
Report No. DODIG-2013-097 (Project No. D2012-D000JB-0181.000)                                          June 26, 2013

                Results in Brief: Improvements Needed in the
                Oversight of the Medical-Support Services
                and Award-Fee Processes Under the Camp
                As Sayliyah, Qatar, Base Operations Support
                Services Contract
What We Did                                                     waivers. In addition, contracting officials did not
                                                                properly administer the award-fee process.
Our objective was to determine whether DoD officials            Specifically, Army officials did not adequately
were properly administering the Camp As Sayliyah,               document and justify an award fee of approximately
Qatar, Base Operations Support Services (QBOSS)                 $1.5 million paid to the contractor and the contractor
contract, valued at $143.4 million. This report is one          received the award fees even though required critical
in a series and focuses on the administration of the            positions were unfilled.
award-fee process and medical services major
functional area of the contract.                                This occurred because the award-fee plans used to
                                                                evaluate the contractor’s performance were not
What We Found                                                   consistent with FAR, and performance monitors were
DoD officials did not administer the medical services           not trained on award-fee evaluation criteria nor on
major functional area of the QBOSS contract in                  how to provide ratings that represent the intent of an
accordance with the Federal Acquisition Regulation              award-fee contract. As a result, contracting officials
(FAR). Specifically, the contracting officer and the            put the DoD at risk of liability for claims of negligent
administrative contracting officer allowed contractor           medical treatments, receiving less-than-optimal health
physician assistants to provide medical services                care, and violating host-country laws. Moreover, there
without proper supervision, and Landstuhl Regional              was no assurance the contractor was motivated to
Medical Center (Landstuhl) officials erroneously                improve performance in the rated areas, and the Army
authorized the Area Support Group–Qatar command                 may not be able to justify continued use of an
surgeon to supervise contractor physician assistants            incentive-type contract with award fees valued at
under a non-personal services contract. This occurred           approximately $2.59 million.
because the contracting officer did not clarify the
contractor’s responsibility, and Army regulation does
                                                                What We Recommend
not prohibit Government employees from supervising              Among other recommendations, we recommend the
physician assistants providing services under a                 Commander, U.S. Army Medical Command, revise
non-personal health care contract.                              guidance and the Commander, Landstuhl Regional
                                                                Medical Center, establish procedures in line with the
Furthermore, contracting officials did not verify the           guidance. We also recommend the Director, Army
contractor possessed required authorizing                       Contracting Command–Rock Island, require the
documentation before performing medical services.               contractor to provide a medical health services
Specifically, Army officials did not verify a physician         manager who is a medical doctor to supervise the
assistant’s license was active before granting clinical         professional aspects of physician assistants’ duties and
privileges; contracting officials and Landstuhl officials       that the Commander, Defense Contract Management
did not ensure the contractor obtained host-country             Agency–Kuwait, provide clear instructions and
waivers for medical personnel; and the contracting              training regarding award-fee plans and evaluations.
officer did not verify the contractor indemnified the
U.S. Government. This occurred because Landstuhl                Management Comments and
officials did not have a written standard operating             Our Response
procedure for verifying authorizing documentation. In
                                                                Management comments were responsive, and no
addition, contracting officials and the contractor did
not know the requirements for obtaining host-country
                                                                additional comments are required. Please see the
                                                                Recommendations table on the back of this page.

                                                            i
Report No. DODIG-2013-097 (Project No. D2012-D000JB-0181.000)                       June 26, 2013

Recommendations Table
         Management                   Recommendations             No Additional Comments
                                     Requiring Comment                  Required
Commander, U.S. Army Medical                                    A.1
Command
Commander, Landstuhl Regional                                   B.2
Medical Center
Commander, Defense Contract                                     B.3, C.1.a, C.1.b
Management Agency–Kuwait
Director, Army Contracting                                      A.2.a, A.2.b, B.1, C.2
Command–Rock Island
Table of Contents
Introduction                                                                     1

      Objective                                                                  1
      Background                                                                 1
      Review of Internal Controls                                                3

Finding A. Physician Assistants Require Proper Supervision                       4

      Improper Supervision of Physician Assistants Under a Non-Personal
        Services Contract                                                        4
      Supervision Requirements Need Clarification in the Contract                5
      Army Regulation Contradicts Federal Acquisition Regulation
        Requirement                                                              6
      Medical Malpractice Liability Transferred to the Government                6
      Collecting Payments for Questioned Labor Costs                             7
      Conclusion                                                                 7
      Memorandum to the Commander, Defense Contract Management
        Agency–Kuwait and the Director, Army Contracting
        Command–Rock Island                                                      7
      Management Actions in Response to the Memorandum and Our
        Response                                                                 7
      Recommendations, Management Comments, and Our Response                     8

Finding B. Contractor Did Not Possess Authorizing Documentation for
Medical Personnel                                                                10

      Army Regulation Establishes Policy for Contracted Medical Services         10
      Federal Acquisition Regulation Establishes Policy for Contract Oversight   11
      Contractor Needs to Indemnify the U.S. Government                          11
      Landstuhl Officials Need Standard Operating Procedures                     12
      Contracting Officials Were Not Aware of Army Regulation
        Clinical Quality Requirements                                            12
      Landstuhl Officials May Have Put Personnel at Risk of Receiving
        Less-Than-Optimal Health Care                                            13
      Conclusion                                                                 13
      Management Actions in Response to the Memorandum and Our
        Response                                                                 13
      Recommendations, Management Comments, and Our Response                     14
Table of Contents (cont’d)
Finding C. Improvements Needed in the Award-Fee-Evaluation Process            16

      Award-Fee-Evaluation Process                                            16
      Contracting Officials Did Not Properly Administer the
        Award-Fee-Evaluation Process                                          17
      The Contractor Received Award-Fees Even Though Required Critical
        Positions Were Unfilled                                               19
      The Original Award-Fee Rating Scale Was Inconsistent With
      Federal Acquisition Regulation                                          19
      Award-Fee Plans Lacked Specific Evaluation Criteria                     20
      Lack of Training Prevented the Performance Monitors From
        Performing Proper Award-Fee-Evaluations                               21
      The Army May Not Be Able to Justify Award Fees                          22
      Award-Fee Plans Should Motivate the Contractor to Enhance Performance   22
      Conclusion                                                              22
      Recommendations, Management Comments, and Our Response                  23

Appendices

      A. Scope and Methodology                                                25
             Use of Computer Processed Data                                   26
             Use of Technical Assistance                                      26
      B. Prior Coverage                                                       27
      C. Mitigating Potential Organizational Conflict of Interest             28
      D. Quick Reaction Memorandum on Medical Services                        29
      E. Army Contracting Command–Rock Island Responses to the Quick
            Reaction Memorandum                                               34
      F. Defense Contract Management Agency Responses to the
            Quick Reaction Memorandum                                         36

Management Comments

      Army Materiel Command                                                   38
      Army Medical Command                                                    43
      Defense Contract Management Agency                                      47
Introduction
Objective
Our objective was to determine whether DoD officials were properly administering the
Camp As Sayliyah, Qatar, Base Operations Support Services (QBOSS) contract.
Specifically, we determined whether DoD officials were properly justifying award fees
paid to the contractor and were effectively monitoring the contractor’s performance.
However, during the planning phase of the audit, we noted the contractor did not provide
a supervising physician to collaborate with physician assistants or indemnify the DoD of
legal liability that could result from malpractice by physician assistants. Because of the
liability associated with this situation, on November 8, 2012, we issued a memorandum
to the Commander, Area Support Group–Qatar (ASG-QA) stating our concerns (see
Appendix D for the memorandum).

This is one in a series of reports on the QBOSS contract. We focused this review on
administration of the medical support functional area of the contract and the award-fee
process. A future audit will determine whether costs on contractor invoices for services
performed and supplies received were accurate and allowable. See Appendix A for a
discussion of the audit scope and methodology.

Background
ASG-QA is a subordinate command of U.S. Army Central and serves as the Army
component headquarters for assigned Army and Joint Tenant Units at Camp As Sayliyah
in Qatar and for the U.S. Central Command Area of Responsibility. ASG-QA maintains
a reception, staging, onward-movement, and integration process to equip and arm
battalion-to-brigade-sized task force element units arriving in Qatar.

QBOSS Contract Award
The QBOSS contract is a combination cost-plus-award-fee and firm-fixed-price contract
awarded by Army Contracting Command–Rock Island (ACC-RI) on March 11, 2010.
The contract is valued at $143.4 million over one base period of performance and four
option periods. The QBOSS contract performance of work statement (PWS) requires the
contractor to provide installation support services at Camp As Sayliyah, to include the
following major functional areas:

        •   supply and services,
        •   full food support,
        •   installation transportation,
        •   public works,
        •   community services support,
        •   medical services,
        •   staff augmentation,
        •   safety program,
        •   environmental program, and
        •   fire department.

                                            1
Cost-Plus-Award-Fee Contracts
A cost-plus-award-fee contract is a type of cost-reimbursement contract that provides for
a fee consisting of a base amount, fixed at the inception of the contract, and an award
amount, based on a subjective evaluation by the Government. The award fee earned must
be commensurate with the contractor’s overall cost, schedule, and technical performance
as measured against contract requirements and in accordance with criteria stated in an
award-fee plan (AFP). The AFP identifies award-fee evaluation criteria and describes
how the contractor’s performance will be measured against the criteria. AFP criteria
should motivate the contractor to enhance performance in the areas rated.

QBOSS Contract Oversight Roles and Responsibilities
The Federal Acquisition Regulation (FAR) establishes roles and responsibilities for DoD
contracting and agency officials. FAR subpart 1.6, “Career Development, Contracting
Authority, and Responsibilities,” states that contracting officers must ensure performance
of all necessary actions for effective contract administration, compliance with the terms
of the contract, and safeguarding the U.S. Government’s interests in its contractual
relationships.

In addition, FAR 42.2, “Contract Administration Services,” permits contracting officers
to delegate contract administration to a contract administration office. Contract
administration office responsibilities for the QBOSS contract were initially delegated on
July 16, 2010, to ASG-QA but were re-delegated to the Defense Contract Management
Agency–Middle East on August 2, 2012. Whether contract administration is delegated to
a contract administration office or not, a contracting officer retains responsibility for
ensuring all contract administration functions are performed. Contracting officers may
designate a contracting officer representative (COR) for administration of contracts. If
delegated, CORs are responsible for assisting in the technical monitoring or
administration of a contract. As of July 1, 2012, 24 CORs had been assigned to perform
technical monitoring and surveillance of the QBOSS contractor.

Medical Privilege Granting Authority
According to the PWS, the QBOSS contractor is required to provide non-personal health
care services at the Camp As Sayliyah troop medical clinic (TMC). Contractor personnel
provided documentation showing there were three physician assistants providing health
care services, as of September 22, 2012. Army Regulation (AR) 40-68, “Clinical Quality
Management,” May 22, 2009, establishes policies, procedures, and responsibilities for the
administration of Army medical facilities. According to AR 40-68, physician assistants
deliver primary or specialty medical care with physician supervision. However, before
providing health care services, physician assistants must be granted clinical privileges.
Clinical privileges define the scope and limit of practice for physician assistants and are
based on the capability of the health care facility, along with the physician assistant’s
licensure, relevant training and experience, current competence, health status, and
judgment.




                                            2
The Landstuhl Regional Medical Center (Landstuhl), in Germany, serves as the
privileging authority and is responsible for recommending an applicant be granted
clinical privileges after verifying the applicant meets DoD and state licensure
requirements. Contracting officials and the contractor must ensure certifications required
for clinical privileges are renewed and maintained for applicable personnel.

QBOSS Prime Contractor and Subcontractors
The QBOSS contract was awarded to one prime contractor. The prime contractor
subcontracted with three companies to provide services on medical support, food
services, and foreign-national labor sourcing. One of the subcontractors also performs as
the prime contractor host-country sponsor in Qatar. A former contracting official raised
concerns regarding the relationship and a potential conflict of interest. See Appendix C
for ACC-RI actions on mitigating potential organizational conflicts of interest.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses related to oversight of the QBOSS contract. Specifically, the contracting
officer did not clarify the contractor’s responsibility in the PWS, and AR 40-68 was in
direct contradiction with FAR guidance regarding the supervision of physician assistants
providing services under a non-personal health care contract. In addition, Landstuhl
officials did not have a written standard operating procedure for verifying authorizing
documentation, such as state licenses and host-country waivers. Furthermore, contracting
officials did not implement AR 40-68 clinical quality requirements for indemnification
and obtaining host-country waivers. Finally, the award-fee plans did not have sufficient
evaluation criteria, and performance evaluators were not trained on award-fee evaluation
criteria and rating process. We will provide a copy of the report to the senior official
responsible for internal controls in the Department of the Army and to Defense Contract
Management Agency (DCMA).




                                            3
Finding A. Physician Assistants Require
Proper Supervision
Army and DCMA officials did not administer the medical services functional area of the
QBOSS contract in accordance with FAR subpart 37.4 “Nonpersonal Health Care
Services.” Specifically, administrative contracting officers (ACO) did not verify
contractor physician assistants provided medical services under proper supervision and
Landstuhl officials erroneously authorized the ASG-QA command surgeon to supervise
contractor physician assistants under a non-personal services contract.

This occurred because the contracting officer at ACC-RI did not clarify in the
performance work statement (PWS), the contractor’s responsibility to provide a medical
doctor to supervise the medical and professional aspects of health care services provided
in accordance with FAR subpart 37.4 and the contract proposal. In addition, AR 40-68,
“Clinical Quality Management,” May 22, 2009, did not prohibit the appointment of
Government employees for supervision of physician assistants providing services under a
non-personal health care contract, in direct contradiction of FAR subpart 37.4. As a
result, the contracting officer created an improper employer-employee relationship and
put the Army at risk of liability for any claims alleging negligent professional judgment
and diagnosis for specific medical treatments by the contractor. Moreover, DoD officials
paid approximately $211,000 in questionable labor costs for a medical health service
manager (MHSM) who was not a medical doctor and not qualified to direct the medical
staff in performing clinical tasks.

Improper Supervision of Physician Assistants Under a
Non-Personal Services Contract
DoD officials did not administer the medical services functional area of the QBOSS
contract in accordance with FAR subpart 37.4. FAR subpart 37.4, “Nonpersonal Health
Care Services,” states the Government may evaluate the quality of medical services
                                       provided but retains no control over the health care
  The contracting officer and the      services rendered to include, professional
  ACO allowed contractor               judgments or diagnosis for specific medical
  physician assistants to provide      treatment. Therefore, under a non-personal
  medical services at the Camp As      services health care contact, the contractor must
  Sayliyah TMC without verifying       provide supervision for its employees. However,
  that the contractor provided a       the contracting officer and the ACO did not verify
  supervisory physician.               that contracted physician assistants were medically
supervised. Specifically, the contracting officer and the ACO allowed contractor
physician assistants to provide medical services at the Camp As Sayliyah TMC without
verifying that the contractor provided a supervisory physician to collaborate with and
provide medical supervision for the contractor physician assistants, as required.

During the audit, the contractor and a Landstuhl official stated that the ASG-QA
command surgeon would provide medical supervision for physician assistants. In
addition, in August 2012 Landstuhl officials erroneously appointed the ASG-QA


                                             4
command surgeon as a supervisory physician for a contractor physician assistant.
The QBOSS contract is a non-personal health care service contract, and the ASG-QA
command surgeon is not authorized to provide supervision, in accordance with
FAR subpart 37.4. Furthermore, Landstuhl officials did not appoint an alternate
supervising physician to be available during temporary absences of the ASG-QA
command surgeon, as required by AR 40-68, because the ASG-QA command surgeon
was designated as the only physician to collaborate with and provide medical supervision
for the contractor physician assistants.

Moreover, the states in which the physician assistants are licensed are California, Florida,
and Virginia. However, the ASG-QA command surgeon is licensed in Georgia and
Pennsylvania, and the medical facility did not petition state boards to allow the ASG-QA
command surgeon to supervise the physician assistants. Therefore, the ASG-QA
command surgeon did not have the authority to supervise the physician assistants.

Supervision Requirements Need Clarification in the
Contract
The contracting officer at ACC-RI did not clarify in the PWS the requirement for the
contractor to provide a medical doctor to supervise the medical and professional aspects
(for example, diagnosis for specific medical treatment) of health care services in
accordance with FAR subpart 37.4 and the contract proposal. During the audit, we
determined the contractor’s proposal was incorporated 1 into the contract but not all terms
of the proposal were translated into the contract PWS by the contracting officer.
Specifically, the contract PWS did not include the terms stated in the proposal concerning
the qualifications and responsibilities of the MHSM. In the proposal, the contractor
stated that the MHSM would be a medical doctor whose responsibilities include
“directing and administering the medical staff in accomplishment of clinical tasks.”
However, the PWS only required the MHSM to have a “Bachelor’s Degree or above in
Health Care Administration” and stated that the MHSM will be responsible to provide
direction and leadership to all TMC contractor staff to ensure quality health care services
and wellness programs.

After reviewing the current MHSM’s qualifications, we determined he was not a licensed
medical doctor and, therefore, was ineligible to direct the medical staff while
accomplishing clinical tasks as stated in the proposal. Although the contract states the
proposal terms were incorporated into the contract, the requirements in the contract PWS
did not match the terms established by the contractor in the proposal. If the contractor
would have provided an MHSM who was a medical doctor, as proposed, the MHSM may
have been eligible to supervise the medical and professional aspects of the physician
assistants’ clinical tasks. Therefore, the contracting officer should require the contractor


1
  When a proposal is incorporated into a contract, all terms and requirements of the proposal become the
terms and requirements of the awarded contract, in addition to any other requirements added when the
contract is awarded.



                                                     5
to provide an MHSM who is a medical doctor, to supervise the medical and professional
aspects of the physician assistants’ clinical tasks, in accordance with the contractor’s
proposal.

Army Regulation Contradicts Federal Acquisition
Regulation Requirement
AR 40-68, “Clinical Quality Management,” May 22, 2009, does not prohibit Government
employees from supervising physician assistants providing services under a non-personal
health care contract; in direct contradiction of FAR subpart 37.4. Specifically, AR 40-68
allows for a physician appointed by a military treatment facility to provide necessary
supervision of physician assistants. AR 40-68 states that under a non-personal services
contract, supervision of a physician assistant can be accomplished by either of two
options, listed in order of preference:
   •   The contractor is responsible for providing the additional supervision. In this
       case, the military treatment facility will cooperate by providing copies of medical
       records for external review. The number of medical records will be locally
       determined.
   •   The medical facility must petition the state board of licensure of physician
       assistants to honor physician license portability. Physician portability allows a
       military treatment facility-appointed physician to provide the necessary
       supervision to physician assistants. The military treatment facility-appointed
       supervising physician is obligated to meet any additional supervision
       requirements of the physician assistant’s state of licensure.

FAR subpart 37.4 authorizes agencies to enter into non-personal services health care
contracts with physicians. However, under non-personal services health care contracts,
the contractor is independent and, therefore, not subject to supervision or control usually
prevailing in personal services health care contracts where DoD-appointed physicians are
authorized to supervise the contractor employees. Specifically, FAR 37.401 (b) states
that “the Government may evaluate the quality of professional and administrative
services provided, but retains no control over the medical, professional aspects of
services rendered (e.g., professional judgments, diagnosis for specific medical
treatment).” In addition, FAR Subpart 37.1, “Service Contracts–General,” states that
under a non-personal services contract, contractors are not subject, either by contract
terms or by contract administration to supervision by government personnel. Since the
services provided under the QBOSS contract are non-personal, the ASG command
surgeon cannot supervise the contracted physician assistant. Therefore, the Department
of the Army and the Office of the Surgeon General should revise AR 40-68 to reflect the
requirements in FAR subpart 37.4.

Medical Malpractice Liability Transferred to
the Government
By allowing the ASG-QA command surgeon to supervise the contractor physician
assistants, contracting officials may have transferred the risk of liability for medical


                                              6
malpractice claims from the contractor to the DoD. Specifically, allowing the ASG−QA
command surgeon to collaborate with physician assistants creates an improper
employer-employee relationship and puts the Army at risk of liability for any personal
injury claims alleging negligence on the professional judgment and diagnosis for specific
medical treatments by the contractor.

Collecting Payments for Questioned Labor Costs
DoD officials paid the contractor approximately $211,000 of questioned labor costs for
an MHSM who did not meet the qualifications proposed by the contractor to provide a
medical doctor that is qualified to direct the medical staff in performance of clinical
tasks. According to the contractor the proposed MHSM possessed a medical doctorate, a
master’s degree in public health, and a master of health administration degree. During
the audit, we determined that the contractor’s proposal was incorporated into the contract
but that the contractor did not provide an MHSM who was a medical doctor. Instead, the
contractor provided an MHSM with master of professional studies degree in health and
human services administration and a bachelor of arts degree in business administration.
The contracting officer should initiate a review of contractor invoices to determine the
exact amount of questioned labor costs and obtain a refund from the contractor for an
MSHM who was not a medical doctor.

Conclusion
DoD Contracting officials did not comply with FAR guidance to provide a supervising
physician for physician assistants providing medical services. As a result, contracting
officials may have transferred the risk of liability for medical malpractice claims from the
contractor to the DoD. In addition, by not enforcing the requirements of
FAR subpart 37.4, contracting officials incorrectly administered the medical services
portion of the QBOSS contract as a personal services health care contract.

Memorandum to the Commander, DCMA–Kuwait and the
Director ACC-RI
Because of the potential liability associated with this issue, on November 8, 2012, we
issued a memorandum to the Director, ACC-RI and the Commander, DCMA–Kuwait
stating our concerns regarding the supervision of physician assistants. We suggested the
Director, ACC-RI, require the contractor to provide a supervising physician to
collaborate with physician assistants as required in the performance work statement and
FAR subpart 37.4. We also suggested the Commander, DCMA–Kuwait adjust the
current physician assistant-supervision structure to comply with FAR requirements to
ensure there is no employer-employee relationship under a non-personal services health
care contract.

Management Actions in Response to the Memorandum
and Our Response
In response to the memorandum, the Director, ACC-RI stated that the contractor was sent
a contracting officer letter, dated November 14, 2012, requiring the contractor to provide


                                             7
a supervising physician to collaborate with physician assistants, as required in the PWS
and FAR subpart 37.4. The contractor acknowledged receipt of the letter and is working
on submitting a cost proposal for a supervising physician. For the full text of the
Director, ACC-RI management’s responses, see Appendix E.

In response to the memorandum, the Commander, DCMA–Kuwait stated that to meet the
FAR, the ACO provided appropriate direction to the contractor in its letter dated
November 14, 2012. In addition, the Commander stated that DCMA–Kuwait would
monitor and report compliance with contractual terms and conditions within their
prescribed delegation as well as the specific guidance from the contracting officer. For
the full text of the DCMA–Kuwait Commander’s response, see Appendix F.

We commend the actions taken by the Director, ACC-RI, to require the contractor to
provide a supervising physician to collaborate with physician assistants, as required in the
PWS and FAR subpart 37.4. After the memorandum was issued, we determined that the
contractor had proposed that the MHSM to be provided would be a medical doctor
qualified to direct the medical staff in performance of clinical tasks. Therefore, the
contracting officer should require the contractor to provide an MHSM who is a medical
doctor to supervise the medical and professional aspects of the physician assistants’
clinical tasks, in accordance with the contractor’s proposal.

We also commend the Commander, DCMA–Kuwait for actions planned to monitor and
report compliance with contractual terms and conditions within their prescribed
delegation as well as the specific guidance from the contracting officer.

Recommendations, Management Comments, and Our
Response
A.1. We recommend the Commander, U.S. Army Medical Command, revise
Army Regulation 40-68, “Clinical Quality Management,” to align the regulation
with supervision requirements set forth in Federal Acquisition Regulation 37.4.

U.S. Army Medical Command Comments
The Chief of Staff, Deputy Principal Assistant Responsible for Contracting, Health Care
Acquisition Activity, responding on behalf of the Commander, U.S. Army Medical
Command (MEDCOM), agreed and stated that AR 40-68 will be revised to indicate that
non-personal service contract PAs will have a supervisor supplied by the contractor in
accordance with FAR guidance.

Our Response
Comments from the Chief of Staff were responsive, and no additional comments are
required.




                                             8
A.2. We recommend the Director, Army Contracting Command–Rock Island:
    a. require the contractor to provide a medical health services manager who is a
medical doctor, to supervise the medical and professional aspects of the physician
assistants’ clinical tasks, in accordance with the contractor’s proposal.

ACC-RI Comments
The Executive Director, Army Contracting Command–Rock Island agreed and stated that
although AR 40-68 was mentioned in the PWS, there was no discussion or direction
given of its specificity as applied to the medical services section C5.6 of the PWS.
A supervising physician’s position is being added to the PWS. He further stated that
ACC-RI requested confirmation from MEDCOM on April 10, 2013, that the specific
qualifications of the supervising physician will meet the requirements of AR 40-68.
It is anticipated that the contractor will have the supervising physician position filled by
approximately August 15, 2013.

Our Response
Comments from the Executive Director, Army Contracting Command–Rock Island were
responsive, and no additional comments are required.

    b. require the contracting officer to initiate a review of contractor invoices to
determine the exact amount of questioned labor costs and obtain a refund from the
contractor for an medical health services manager who was not a medical doctor to
the extent provided by acquisition regulations.

ACC-RI Comments
The Executive Director, Army Contracting Command–Rock Island agreed and stated
ACC-RI coordinated with Defense Contract Audit Agency on April 11, 2013, to conduct
a review of the invoices to determine if a refund to the Government is necessary.

Our Response
Comments from the Executive Director, Army Contracting Command–Rock Island were
responsive, and no additional comments are required.




                                             9
Finding B. Contractor Did Not Possess
Authorizing Documentation for Medical
Personnel
Landstuhl officials, the contracting officer, and the ACO did not verify the contractor
possessed required authorizing documentation prior to performing medical services at
Camp As Sayliyah. Specifically:
    •    Landstuhl officials did not verify one physician assistant’s license was active
         before granting clinical privileges,
    •    Landstuhl officials, the contracting officer, and the ACO did not verify the
         contractor obtained host-country waivers 2 authorizing medical personnel to
         perform health care services at U.S. Government facilities within the
         State of Qatar, and
    •    The contracting officer at ACC-RI did not verify the contractor indemnified the
         U.S. Government.

This occurred because Landstuhl officials did not have a written standard operating
procedure for verifying authorizing documentation, such as state licenses and
host-country waivers. Furthermore, contracting officials were not familiar and did not
implement AR 40-68 clinical quality requirements obtaining host-country waivers or
FAR subpart 37.4 requirements for indemnification.

As a result, Landstuhl officials may have put DoD personnel at risk for receiving less
than optimal health care, endangered patient safety, and increased contractor-initiated
compensable events. In addition, Landstuhl Officials, the contracting officer, and the
ACO may have put the Army at risk of violating host county laws.

Army Regulation Establishes Policy for Contracted
Medical Services
AR 40-68, “Clinical Quality Management,” May 22, 2009, establishes policy and
procedures for the administration of medical services personnel. Specifically, AR 40-68
requires medical personnel who perform medical services (including physician assistants)
to be granted clinical privileges. Clinical privileges define the scope and limits of
practice for individual providers and are based on the provider’s licensure, relevant
training, experience, current competence, health status, and judgment. Before a
privilege-granting authority can grant clinical privileges, it must verify the applicant’s




2
  Host-country waivers authorize the contractor to be hired under a non-personal services contract and
stipulate that the individual will provide services only on U.S. facilities in the host country and that the
individual is licensed in a U.S. jurisdiction, not the host country.



                                                       10
licensure. In addition to maintaining a current, active, valid and unrestricted license,
non-personal service contractors must indemnify the Government, and contract
employees must obtain a host-country waiver.

Federal Acquisition Regulation Establishes Policy for
Contract Oversight
FAR Subpart 1.6, “Career Development, Contracting Authority, and Responsibilities,”
states that contracting officers must ensure performance of all necessary actions for
effective contract administration, compliance with the terms of the contract, and
safeguarding the U.S. Government’s interests in its contractual relationships.

Physician Assistant Granted Clinical Privileges Without an
Active State License
Landstuhl officials did not verify a physician assistant’s license was active before
granting clinical privileges. Specifically, officials granted a physician assistant clinical
privileges even though his state physician assistant’s license was expired. AR 40-68
requires non-personal services–contracted physician assistants to possess and maintain a
current, active, valid and unrestricted license before practicing health care services. In
addition, before a privilege-granting authority can grant privileges, it must verify the
applicant’s licensure and certification status. However, after review of licensure and
clinical privileging documentation, we determined Landstuhl officials granted the
physician assistant clinical privileges on May 21, 2012, even though the physician
assistant’s license expired on September 30, 2011.

Contracted Medical Personnel Did Not Obtain
Host-Country Waivers
Landstuhl officials, the contracting officer, and the ACO did not verify the contractor
obtained host-country waivers from the State of Qatar to allow medical personnel to
perform health care services at Camp As Sayliyah in Qatar. Specifically, three physician
assistants and one clinical psychologist were allowed to perform medical services without
host-country waivers. AR 40-68 states in locations outside
                                                                   Three physician assistants
the United States, the host country must grant a waiver to
                                                                   and one clinical psychologist
permit an American citizen to be hired under a non-personal
                                                                   were allowed to perform
services contract. The waiver must stipulate that the
                                                                   medical services without
individual will provide services only on the U.S. Federal
                                                                   host country waivers.
enclave and that he or she is licensed in a U.S. jurisdiction,
not the host nation. However, the contractor stated it did not obtain host-country waivers
for medical personnel and that it was not aware of the requirement.

Contractor Needs to Indemnify the U.S. Government
The contracting officer at ACC-RI did not verify the contractor indemnified the
U.S. Government as required by FAR subpart 37.4. Specifically, for non-personal health
care contracts, the contractor is required to indemnify the Government for any liability




                                             11
producing act or omission by the contractor, its employees and agents occurring during
contract performance. However, the contracting officer did not require that the contractor
provide the indemnification documents prior to contract award.

Landstuhl Officials Need Standard Operating
Procedures
Landstuhl officials did not have written standard operating procedures for verifying
authorizing documentation required by AR 40-68, such as state licenses and host-country
waivers. We requested that Landstuhl officials provide their standard operating
procedures for verifying documentation required for medical providers to perform health
care services. Landstuhl officials stated they did not have a standard operating
procedure; rather, they just referred to AR 40-68. Although AR 40-68 establishes
policies, procedures, and responsibilities for granting clinical privileges, Landstuhl
Regional Medical Center should establish procedures in line with AR 40-68 for verifying
authorizing documentation for personnel requesting to perform health care services at
U.S. Army facilities.

Contracting Officials Were Not Aware of Army
Regulation Clinical Quality Requirements
Contracting officials were not familiar with requirements of AR 40-68, such as obtaining
host-country waivers. In addition, the contracting officer did not ensure the contractor
indemnified the Government, as required by FAR 37.4. Although the PWS referenced
AR 40-68 and FAR 37.4, the contracting officer and the ACO each stated that they were
unfamiliar with AR 40-68 requirements for non-personal services contracted medical
providers. Therefore, ACC-RI and DCMA officials should review and amend procedures
so that contracting officers and ACOs are familiar with regulatory requirements that are
incorporated into contracts.

During the audit, we discussed this issue with MEDCOM acquisition and policy
personnel. While not required, MEDCOM personnel stated that when awarding contracts
that contain specialty services, such as medical services, the contracting officer should
consider coordinating with the cognizant MEDCOM organization to ensure familiarity
with applicable regulations. For example, if the procuring contracting officer had
coordinated with MEDCOM before issuing the QBOSS contract, the contracting officer
might have become familiar with AR 40-68 requirements. We later provided contracting
officials at ACC-RI with a point of contact at MEDCOM for future coordination when
issuing contracts with medical services. A contracting officer at ACC-RI stated that the
procuring contracting officer did not coordinate with MEDCOM personnel when issuing
the QBOSS contract but did so when issuing an updated PWS. We commend the actions
taken by ACC-RI to address concerns within the PWS.




                                           12
Landstuhl Officials May Have Put Personnel at Risk of
Receiving Less-Than-Optimal Health Care
By granting clinical privileges to a physician assistant with an expired license, Landstuhl
officials may have put DoD personnel at risk for receiving less than optimal health care,
endangered patient safety, and increased contractor-initiated compensable events. After
we informed contracting officials and the contractor of this issue, the contractor
suspended the physician assistant and took steps to expedite the renewal of the physician
assistant’s license. Subsequently, contracting officials provided us with documentation
of the physician assistant’s renewed license. In addition, during discussions with
Landstuhl officials, the contracting officer and the ACO each stated that host-country
waivers from the State of Qatar were not obtained for medical providers, putting the
Army at risk of violating host-country laws.

Conclusion
Landstuhl officials did not verify a physician assistant’s license was active before
granting clinical privileges. In addition, Landstuhl officials, the contracting officer, and
the ACO did not verify the contractor obtained host-country waivers authorizing medical
personnel to perform health care services at U.S. Government facilities within the
State of Qatar. Landstuhl officials did not have a written standard operating procedure
for verifying authorizing documentation, such as state licenses and host-country waivers.
Furthermore, the contracting officer, the ACO, and the contractor were not familiar with
requirements for obtaining host-country waivers or indemnifying the Government prior to
performing health care services.

Management Actions in Response to the Memorandum
and Our Response
Because of the potential liability associated with this issue, on November 8, 2012, we
issued a memorandum to the Director, ACC-RI, the Commander, DCMA–Kuwait and the
Commander, Landstuhl Regional Medical Center stating our concerns regarding the
physician assistant being granted clinical privileges with an inactive license and the
contractor not obtaining host-country waivers before providing medical services in Qatar.
As the contractor had resolved the issue regarding the physician assistant’s license, we
suggested the Director, ACC-RI should require the contractor to indemnify the
Government. On November 26, 2012, the Director, ACC-RI, responded that a
contracting officer letter dated November 14, 2012, was sent to the contractor requiring
indemnification of the Government. We believe the initial action described by the
Director, ACC-RI, is responsive to our suggestion for indemnification of the
Government.

Further, we suggested the Commander, DCMA–Kuwait require the contractor to obtain
host-country waivers for personnel providing medical services at the Camp As Sayliyah
TMC. On December 4, 2012, the Commander, DCMA–International responded that
DCMA–Kuwait has coordinated with the contracting officer, who is issuing the




                                            13
contractor guidance to obtain the required host-country waivers. We believe
DCMA-Kuwait’s initial action is responsive to our suggestion for non-personal services
medical providers to obtain host-country waivers in accordance with AR 40-68.

Recommendations, Management Comments, and Our
Response
B.1. We recommend the Director, Army Contracting Command–Rock Island,
develop procedures to ensure contracting officers are familiar with regulatory
requirements that are incorporated into contracts.

ACC-RI Comments
The Executive Director, Army Contracting Command–Rock Island agreed and stated that
they have notified the pertinent Contracting Officers via email, April 19, 2013, that
coordination with MEDCOM should be made for contracts that contain any medical
sections.

Our Response
Comments from the Executive Director, Army Contracting Command–Rock Island were
responsive, and no additional comments are required.

B.2. We recommend the Commander, Landstuhl Regional Medical Center establish
procedures in line with Army Regulation 40-68 for verifying authorizing
documentation for personnel requesting to perform health care services at
U.S. Army facilities.

Army Medical Command Comments
The Commander, U.S. Army Medical Command agreed by providing a policy letter from
the European Regional Medical Center, Management Coordinator. The policy letter
establishes credentialing contractor employment conditions for personal and non-personal
services, in accordance with Army Regulation 40-68. The European Regional Medical
Center, Management Coordinator signed the policy letter June 21, 2013.

Our Response
Comments from the Commander, U.S. Army Medical Command were responsive, and no
additional comments are required.

B.3. We recommend the Commander, Defense Contract Management
Agency-Kuwait develop procedures to ensure administrative contracting officers
are familiar with regulatory requirements that are incorporated into contracts.

DCMA–International Comments
The Acting Commander, DCMA–International endorsed comments from Headquarters,
DCMA which agreed with the intent of the recommendation and stated that the missed
requirements should have been identified during the contract receipt and review process.
He further stated that a new process is not required, however proper adherence to the


                                           14
current process will ensure that the contract management team is aware of complex or
special contract terms and conditions of the contract. In addition, during Phase II
training, the QAR and COR shall review the Army specific Regulations and Technical
Manuals that are applicable to the specific sections of the PWS the COR will audit. This
will ensure that the COR understands they need to utilize a combination of contract
documents (for example, PWS, SOPs, and Army regulations) to ensure the contractor is
meeting government requirements.

Our Response
Comments from the Acting Commander, DCMA–International were responsive, and no
additional comments are required.




                                           15
Finding C. Improvements Needed in the
Award-Fee-Evaluation Process
Contracting officials did not properly administer the award-fee–evaluation process in
accordance with FAR guidance. Although the ASG-QA commander appointed an
Award-Fee Review Board (AFRB) and conducted award-fee-performance evaluation
meetings, the Army did not adequately document and justify approximately $1.5 million 3
in award fees paid to the QBOSS contractor. For example, the contractor was paid
$735,290 instead of $603,404 that was allowed by the FAR, and the contractor received
award fees when critical positions went unfilled. This occurred because for the first four
award-fee rating periods, the contracting officials used an inflated rating scale that was
inconsistent with the FAR. Furthermore, the AFP lacked specific evaluation criteria and
eight of the 12 performance monitors (PMs) 4 that we interviewed were not trained to
properly perform award-fee–evaluation. For example, during an interview, one PM
stated he was instructed to “just give the contractor a 97-percent rating, because nobody
asks questions about the ratings.”

As a result, during the first four award-fee periods, the Army was contractually obligated
to pay the contractor about $131,886 in unnecessary award fees. An effective award-fee
process provides an incentive for a contractor to improve performance. Therefore, until a
comprehensive award-fee process is in place, contracting officials are at risk of paying
the contractor up to $2.59 million in future award fees without sufficient support,
justification, or assurance that the award fees are commensurate with its performance.

Award-Fee–Evaluation Process
The Army Contracting Agency (ACA) Handbook states that the award-fee process is a
continuous process, supported by an AFP, and defines the criteria used to evaluate the
contractor’s performance. The contracting officer typically designates onsite
representatives or PMs to evaluate and report on contractor performance. AFRB
members use these reports, along with contractor self-assessments, to evaluate the
contractor’s overall performance and make an award-fee recommendation to the
Award-Fee Determining Official (AFDO). The AFDO makes the final determination
regarding the award fee earned for each evaluation period and signs the award-fee
determination letter for the evaluation period, specifying the award fee earned and the
basis for that determination. After the AFDO signs the determination letter, the
contracting officer prepares and executes the modification authorizing payment to the
contractor of the earned award fee.




3
  The $1.5 million earned by the contractor represents 88 percent of the total available award-fee pool ($1.7
million) for the six award-fee-evaluation periods included in our review.
4
  PMs provide continuous evaluation of the contractor’s performance and may include the administrative
contracting officer, CORs, and the quality assurance evaluators.



                                                     16
Contracting Officials Did Not Properly Administer the
Award-Fee-Evaluation Process
Contracting officials did not properly administer the award-fee evaluation process in
accordance with FAR guidance. FAR Subpart 16.4, “Incentive Contracts,” states that the
fee must be “commensurate with the contractor’s overall cost, schedule, and technical
performance, as measured against contract requirements [and] in accordance with the
criteria in the [AFP].” In addition, an award fee is not earned “if the contractor’s overall
cost, schedule, and technical performance are not at a satisfactory level.” The basis for
all award-fee determinations is to be documented in the contract file. We obtained and
analyzed the AFRB Contractor Performance Evaluation Reports for the six award-fee
periods completed. The reports represent an overall summary, by functional area, of the
PMs’ evaluation of the contractor’s performance during the award-fee evaluation periods.
Our review showed that adequate documentation was not always available to justify the
overall adjectival 5 rating and percentage of the award-fee pool paid to the contractor.
The ASG-QA commander appointed an AFRB and conducted award-fee performance
evaluation meetings; however, the Army did not follow FAR guidance to adequately
document and justify approximately $1.5 million in award fees paid for the six award-fee
evaluation periods we reviewed.

The ASG-QA Commander Appointed AFRB Members
The QBOSS AFP states that the AFRB will consist of voting and non-voting members.
The voting members should be key stakeholders and technical advisors, to include the:
    •    ASG-QA commander,
    •    ASG-QA deputy commander,
    •    ASG-QA command sergeant major,
    •    Regional Contracting Command–Qatar director of contracting,
    •    ASG-QA director of logistics,
    •    ASG-QA director of public works,
    •    ASG-QA director of health services, and
    •    ASG-QA director of morale, welfare and recreation.

During the audit, we determined that the ASG-QA commander established an AFRB that
consisted of both voting and non-voting members. AFRB members met at the end of
each award-fee period to rate the contractor’s performance and to recommend an award
fee to the AFDO. The Army Contracting Command Southwest Asia–Principal Assistant
Responsible for Contracting serves as the AFDO. In addition, AFRB members held
monthly evaluation meetings to discuss the contractor’s performance between award
periods. The members included the contract performance evaluator, CORs, ACO,
command judge advocate, contract specialists, and the director of resource management.


5
  An adjectival rating is one in which adjectives such as excellent, very good, good, fair, and poor are used
to indicate the degree to which the contractor’s performance has met the standard for each factor evaluated.
Adjectival ratings can be employed independently or in connection with other rating systems.



                                                     17
Award-Fee Evaluations Lacked Adequate Documentation and
Were Based on Personal Presumptions
Contractor award-fee ratings were not properly documented and justified. Specifically,
the documentation used to justify award-fee ratings did not always provide narrative
support to justify recommended award-fee ratings. According to the ACA Handbook, the
PMs are required to maintain records of the contractor’s performance that detail examples
where improvement is needed, where improvement has occurred, and where performance
is below, meets, or exceeds the PWS requirements. The examples below illustrate the
lack of documentation and narrative support to justify the basis for determination.
   •   One PM used the same narrative to justify an “Excellent” adjectival rating for the
       second through the fourth award-fee rating periods. Additionally, the narrative
       only describes the basic work requirements stated in the PWS and did not explain
       how the contractor’s performance exceeded the basic contractual requirements.
       The PM performance evaluation report merely stated that “the contractor has
       sufficient manpower to meet requirements with minimal overtime.” This
       narrative did not justify how the contractor’s performance earned an “Excellent”
       adjectival rating.
   •   Another PM gave the contractor an “Excellent” adjectival rating in the fourth
       award-fee period, and referenced the prior performance evaluation as justification
       for awarding the rating. Specifically, the PM explained that “the contractor has
       been an outstanding example of leadership and work ethics by receiving one
       hundred on all performance evaluations for one year straight.” Not only was such
       justification inappropriate for justifying award-fee ratings, it clearly shows that
       the PM did not perform an evaluation of the contractor’s performance. The
       contractor earned an overall adjectival rating of “Very Good” for the period.

The AFRB Used an Inflated Rating Scale to Justify Award-Fees
Paid to the Contractor
The AFRB used an inflated rating scale to justify award-fees paid to the contractor.
FAR Subpart 16.4 assigns the rating scale and percentage range of the available
award-fee pool for each adjectival rating. For example, if the contractor earned a “Good”
rating, the AFRB can award the contractor 51 to 75 percent of the available award-fee
pool. If the contractor earned a “Satisfactory” rating, the AFRB can award up to
50 percent of the available award-fee pool.

However, for the first four rating periods we reviewed, the AFRB awarded the contractor
more than the percentage allowed by the FAR. Table 1 on page 19 illustrates the
award-fee period, the adjectival rating provided, and the FAR mandated award-fee
amount versus the award-fee earned by the contractor.




                                           18
           Table 1. Contractor Award-Fee Rating and Award Fees Earned
                               FAR Mandated           Award Fee Earned
 Award-Fee                                                                     Maximum
               Adjectival        Award-Fee         Unjustified
 Evaluation                                                        Amount      Award Fee
                Rating       Percentage Based on   Percentage
   Period                                                          Earned       Allowed
                              Adjectival Rating     Awarded
     1           Good              51 - 75             88          $183,077     $156,031
     2        Satisfactory          ≤ 50               75          $156,031     $104,021
     3           Good              51 - 75             86          $196,855     $171,676
     4           Good              51 - 75             87          $199,327     $171,676
   Total                                                           $735,290     $603,404


The Contractor Received Award Fees Even Though
Required Critical Positions Were Unfilled
The contractor received award fees even though critical positions were not filled. For the
six award-fee periods we reviewed the AFRB recommended and the AFDO agreed that
the contractor be paid approximately $1.5 million, even though critical contractor
                                         positions required by the PWS were not filled, for
  The AFRB recommended and the
                                         the entire or a portion of the award-fee periods.
  AFDO agreed that the contractor
                                         Unfilled critical positions included physician
  be paid approximately $1.5
                                         assistants, a lead emergency medical
  million, even though critical
                                         technician/paramedic, and a nurse. For example,
  contractor positions required by
                                         during the sixth award-fee period, the TMC had
  the PWS were not filled.
                                         three unfilled positions: two physician assistants
and a nurse. Despite the unfilled positions, the PM submitted a “Very Good” rating for
the TMC functional area. In addition, the AFRB awarded the contractor an overall
“Excellent” adjectival rating and 91.68 percent of the award-fee pool or $397,521, even
though the critical positions were unfilled during the award-fee period.

The Original Award-Fee Rating Scale Was Inconsistent
With FAR
The award-fee rating scale in the original AFP was not in accordance with FAR
guidance. The contracting officer included an inflated award-fee rating scale in the
original AFP. The grading scale allowed the PMs to award the contractor as much as
30 percent higher than the FAR allowance for the adjectival rating. For example, in the
first award-fee rating period, the original AFP allowed the AFRB to award the contractor
88 percent of the award-fee pool with only a “Good” rating. However, the FAR rating
scale only allows the contractor to earn up to 75 percent of the award-fee pool for a
“Good” rating. In March 2011, a contracting officer revised the original AFP to align
with the FAR. The revised AFP adjusted the rating scale for the fifth award-fee period,
beginning in April 2011. Table 2 on page 20 lists the award-fee ratings percentages
contained in the original AFP and the FAR-mandated award-fee ratings. The ACO needs
to provide clear instructions on how the contractor’s performance will be measured
against the award-fee evaluation criteria in accordance with FAR Subpart 16.4.


                                             19
       Table 2. The Original AFP Rating Scale and the FAR-Allowed Ratings

     Award-      Adjectival     Award-    Percentage of Award-    Percentage of Award-
       Fee        Rating          Fee     Fee Pool Available in   Fee Pool Available in
    Evaluatio     Earned        percent   Accordance with the     accordance with FAR
    n Periods                   Earned        Original AFP

        1           Good          88            80 - 89.99               51 - 75

        2        Satisfactory     75            70 - 79.99                ≤ 50

        3           Good          86            80 - 89.99               51 - 75

        4           Good          87            80 - 89.99               51 - 75


Award-Fee Plans Lacked Specific Evaluation Criteria
The AFPs used to evaluate the contractor’s performance lacked specific evaluation
criteria. FAR Subpart 16.4 states that all award-fee contracts must be supported by an
AFP that establishes procedures for conducting award-fee evaluations. In addition,
Army Federal Acquisition Regulation Supplement subpart 5116.405-2,
“Cost-plus-award-fee contract,” states that an AFP must contain clear and specific
evaluation criteria that are tailored to the contract requirements. However, the QBOSS
AFPs lacked specific evaluation criteria, and the contracting officer used an incorrect
adjectival rating scale.

The contracting officer developed and used two AFPs during the six award-fee evaluation
periods we reviewed. The original AFP appeared to be a generic draft that was not
tailored to the QBOSS contract. This AFP was missing three of the seven evaluation
elements required by FAR Subpart 16.4, including the AFDO’s approval signature. The
PMs and the AFRB members used this AFP to evaluate the contractor’s performance and
assign the award-fee ratings for the first four award-fee evaluation periods, from
April 2010 through March 2011. In April 2011, the ACO implemented the revised AFP.
However, the revised plan still lacked sufficient criteria for determining whether the
contractor exceeded the performance standards. Specifically, the plan did not identify the
award-fee evaluation criteria or how the contractor’s performance will be measured
against the award-fee evaluation criteria. Table 3 on page 21 lists the required and
missing criteria.




                                           20
                               Table 3. AFP’s Missing Criteria
  FAR
                                                                           Original   Revised
 Subpart                    Required AFP Criterion
                                                                            AFP        AFP
   16.4
    i        Be approved by the AFDO                                         No         Yes
             Identify the award-fee evaluation criteria and how they are
             linked to acquisition objectives which shall be defined in
    ii       terms of contract cost, schedule, and technical                 No         No
             performance, and the criteria should motivate the
             contractor to enhance performance in the areas rated
             Describe how the contractor’s performance will be
    iii                                                                      No         No
             measured against the award-fee evaluation criteria
             Utilize the adjectival rating and associated description as
    iv                                                                       Yes        Yes
             well as the award-fee pool earned percentages
             Prohibit earning any award-fee when a contractor’s
    v        overall cost, schedule, and technical performance in the        Yes        Yes
             aggregate is below satisfactory
             Provide for evaluation periods to be conducted at stated
             intervals during the contract period of performance so that
    vi       the contractor will periodically be informed of the quality     Yes        Yes
             of its performance and the areas in which improvement is
             expected
             Define the total award-fee pool amount and how this
   vii                                                                       Yes        Yes
             amount is allocated across each evaluation period


Lack of Training Prevented the Performance Monitors
From Performing Proper Award-Fee-Evaluations
Eight of the 12 PMs responsible for rating the QBOSS contractor’s performance were not
trained on the award-fee evaluation process. We interviewed 12 PMs, one from each
major functional area listed in the PWS. The remaining 4 of the 12 PMs that we
interviewed stated they attended a 1-day training class on the award-fee process provided
by the contracting officer. We obtained and reviewed a copy of the 1-day training slides.
The training contained a general overview of the award-fee plan and process but did not
provide an in-depth review on how to administer the award fees for the QBOSS contract.
The ACA Handbook states that training of personnel involved in the award-fee process is
essential for successful monitoring and evaluation of contractor performance.
Specifically, the award-fee–process training should cover the award-fee plan, roles and
responsibilities, documentation requirements, and evaluation techniques. In addition, the
training should include:

    • what is being evaluated;
    • how information should be gathered and techniques to be used;
    • when or how often information should be obtained;
    • how PMs should secure information from functional specialists to cover areas in
       which the monitors may not be personally involved; and
    • evaluation scoring processes that identify the need for consistency between
       scoring and evaluation summaries.

                                                   21
Furthermore, the eight PMs stated they were not familiar with procedures to properly
evaluate the contractor’s performance and support the award-fee ratings. During an
interview, one of the major functional area PMs explained that he was not trained on
administering the award-fee process. In addition, he said he was instructed by his
predecessor to “just give the contractor 97 percent, because nobody asks questions about
the ratings.” Therefore, the ACO, in coordination with the contracting officer, needs to
develop award-fee specific training for all PMs to ensure successful monitoring and
evaluation of contractor performance in accordance with ACA Handbook.

The Army May Not be Able to Justify Award-Fees
During the first four award-fee periods, the Army was contractually obligated to pay the
contractor about $131,886 in unnecessary award fees. Until a comprehensive award
process is in place, the Army may be at risk of paying the contractor award fees up to
$2.59 million for future option years without sufficient support, justification, or assurance
that contractors are paid award fees commensurate with their level of performance.
Furthermore, the ACA Handbook states that documentation regarding the contractor’s
performance is required for the award-fee recommendations and should be available for
the AFDO’s review before a decision of the award-fee amount is made. However,
without sufficient documentation to support the award-fee recommendations and
decisions, the Army may not be able to support continued use of cost-plus-award-fee
contracts.

Award-Fee Plans Should Motivate the Contractor to
Enhance Performance
An effective award-fee process contains an AFP that provides incentives for a contractor
to improve performance in the rated areas. Therefore, the AFP should be unique to
contract requirements, so that the contractor is motivated to perform well in areas most
important to the Government. The AFP should also identify the organizational structure
required to administer the award-fee provisions of the contract. However, the AFPs did
not contain evaluation criteria that established specific and measurable performance
objectives to reward the contractor for performing beyond the basic PWS requirements.
In addition, the contractor received “Excellent” ratings and was awarded approximately
88 percent of the award-fee pool for meeting only the basic PWS requirements. As a
result, there is no assurance that the contractor has an incentive to improve performance
in the rated areas because the contractor receives the same incentive for fulfilling the
basic PWS requirements. Therefore, the contracting officer needs to develop an AFP that
is unique to the QBOSS PWS requirements, so that the contractor can be motivated to
enhance its performance in the rated areas, as required by the Federal Acquisition
Regulation Subpart 16.4.

Conclusion
QBOSS contracting officials did not administer the award-fee process properly. QBOSS
contracting officials did not develop AFPs that are consistent with FAR guidance or
maintain documentation to justify award-fee ratings. Incentive-based contracts are used
to motivate the contractor and enhance its performance. However, QBOSS contracting


                                             22
officials must first implement an effective award-fee process, beginning with the
development of an AFP that contains clear and specific evaluation criteria. Without an
effective AFP, contractors can receive up to $2.59 million in future award fees without
documented support or assurance that the award-fee amount is commensurate with their
level of performance.

Recommendations, Management Comments, and Our
Response
C.1. We recommend the Commander, Defense Contract Management
Agency-Kuwait instruct the administrative contracting officer to:
   a. provide clear instructions on how the contractor’s performance will be
measured against the award-fee evaluation criteria in accordance with Federal
Acquisition Regulation Subpart 16.4.

DCMA–International Comments
The Acting Commander DCMA–International agreed with the intent of the
recommendation and stated, that the ACO has informed the PCO that the current AFDP
is still not consistent with FAR 16.401 as it lacks specific grading criteria. However, the
ACO has taken the appropriate steps within her authority. She has worked with ASG-QA
to identify meaningful performance measures in regards to cost, schedule and technical
performance to assist the PCO in establishing award fee criteria. Based on these efforts,
a revised AFDP has been developed. The revised AFDP identifies award-fee evaluation
criteria consistent with FAR 16.401 Table 16-1 and describes how the contractor’s
performance will be measured against the criteria as it relates to cost, schedule, and
technical performance.

    b. coordinate with the contracting officer to develop award-fee-specific training
for all performance monitors to ensure successful monitoring and evaluation of
contractor performance in accordance with Army Contract Agency Handbook.

DCMA–International Comments
The Acting Commander, DCMA–International agreed and stated that award-fee training
has been developed by the PCO, and the ACO is assisting in providing award-fee specific
training to all CORs as well as all voting and non-voting members of the award-fee board
at least twice a year. In addition, during the DCMA monthly COR meetings the contract
management team shall provide refresher award fee and audit training.

Our Response
Comments from the Acting Commander, DCMA–International were responsive, and the
actions met the intent of the recommendations. No further comments are required.




                                            23
C.2 We recommend the Director, Army Contracting Command–Rock Island
instruct the contracting officer to develop an award-fee plan that is unique to the
Qatar Base Operating Support Service Contract Performance Work Statement
requirements, so that the contractor can be motivated to enhance its performance in
the rated areas, as required by the Federal Acquisition Regulation Subpart 16.4.

ACC-RI Comments
The Executive Director, ACC-RI agreed and stated that the overall contract fee approach
is being re-evaluated and if award fee provisions are retained, a revised AFP will be
incorporated. The Director further stated that a revised AFP has been developed and is
currently under review. The revised plan includes criteria addressing contract cost,
schedule, and technical performance tailored to the requirements of the QBOSS contract.
Estimated completion date is September 30, 2013.

Our Response
Comments from the Executive Director, ACC-RI were responsive, and no additional
comments are required.




                                          24
Appendix A. Scope and Methodology
We conducted this performance audit from June 2012 through March 2013 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions, based on our audit objectives.

We conducted the audit at the ASG-QA located at Camp As Sayliyah, Qatar. To gain an
understanding of the QBOSS contract requirements, we obtained and reviewed the
QBOSS contract, contract modifications, performance work statements, the contract
proposal and other relevant contract documentation in order to get an understanding of
the overall contract terms and conditions. We also conducted interviews with the
contracting officer, the ACO, and the CORs.

We focused our review on administration of the contract award-fee process and the
medical-support-services functional areas of the QBOSS contract. Specifically, during
the planning phase of the audit, we noted contracting officials did not have proper
award-fee evaluation procedures or maintain documentation to justify award-fees and
payments to the contractor. Furthermore, the contractor did not provide a supervising
physician to collaborate with physician assistants or indemnify the DoD of legal liability
resulting from malpractice by physician assistants as required by FAR subpart 37.4,
“Nonpersonal Health Care Services.”

For the award-fee-administration process, we obtained and reviewed documentation to
determine whether contracting officials maintained documentation to justify award-fees
paid to the contractor. We obtained and reviewed relevant sections of the FAR,
Army Federal Acquisition Regulation Supplement, and the ACA Handbook to determine
the requirements for proper administration of the award-fee evaluation process.
Specifically, we identified the requirements for a proper AFP, evaluation criteria, training
for performance monitors, and the award-fee narrative support. To determine roles and
responsibilities in the award-fee process, we interviewed 12 functional area CORs, the
contract quality assurance evaluator, the contracting officer, the ACO, and the ASG-QA
Commander. We obtained AFPs, DCMA and ASG-QA list of CORs, U.S. Army
Contracting Command Award-Fee Determination Plan and Process Training slides,
six award-fee contractor performance evaluation reports, and the monthly performance
evaluation ratings. We also attended a monthly performance evaluation meeting to
observe the Award-Fee Review Board and the contractors’ performance briefing process.

To review the medical support services, we obtained and reviewed documentation to
determine whether contracting officials were administering medical support services as
required by guidance and maintained documentation for medically licensed contractor
personnel working in the TMC. In addition, we reviewed the medical services portion of
the QBOSS contract to ensure compliance with requirements of FAR subpart 37.4. We
also reviewed medical services personnel credentialing such as education, professional
licensing and certification documentation to ensure contractor compliance with


                                            25
requirements of the contract, AR 40-68, “Clinical Quality Management,” May 22, 2009;
and DoD 6025.13-R, “Military Health Systems Clinical Quality Assurance Program,”
June 11, 2004. We conducted interviews with the QBOSS contractor and personnel from
ACC-RI, ASG-QA, DCMA–Kuwait, MEDCOM, and Landstuhl to get an understanding
of their roles, responsibilities, and procedures regarding medical support services, and
compared them with the applicable guidance.
Use of Computer-Processed Data
We used the Electronic Document Access (EDA) database to obtain contract
documentation such as the QBOSS contract and modifications, before our site visit to
Camp As Sayliyah, Qatar. To assess the accuracy of the data, we compared the contract
and modifications from EDA against official contract and modification records received
from the contracting officer at ACC-RI. Because the contract and modifications
matched, we determined that the data obtained through the EDA were sufficiently
reliable to accomplish our audit objectives when compared with the contract records.
Use of Technical Assistance
During the planning phase of the audit, we requested and received technical assistance
from the DoD OIG Quantitative Methods Division. We coordinated with the
Quantitative Methods Division to determine a sampling plan for the Q-BOSS contractor
acquired material and services transactions. However, we did not use the sampling plan
during this audit. We plan to review contractor acquired materials and services in a
future audit; therefore, we will coordinate an updated sampling plan with the Quantitative
Methods Division.




                                           26
Appendix B. Prior Coverage
During the last 5 years, the DoD IG, the Special Inspector General for Iraq
Reconstruction (SIGIR), the Government Accountability Office (GAO), and the
Department of the Army issued 12 reports related to award-fee contracts. Unrestricted
DoD OIG and SIGIR reports can be accessed at http://www.dodig.mil/. Unrestricted
GAO reports can be accessed over the Internet at http://www.gao.gov/. Unrestricted
Army reports can be accessed over the Internet at http://www.aaa.army.mil/.

GAO
GAO Report No. GAO 09-921, “Contract Management: Extent of Federal Spending
Under Cost-Reimbursement Contracts Unclear and Key Controls Not Always Used,”
September 2009
GAO Report No. GAO 09-630, “Guidance on Award Fees Has Led to Better Practices
but Is Not Consistently Applied,” May 2009
GAO Report No. GAO 08-1087, “Military Operations: DoD Needs to Address Contract
Oversight and Quality Assurance Issues for Contracts Used to Support Contingency
Operations,” September 2008

DoD IG
DoD IG Report No. D-2011-078, “Contracts Supporting Base Operations in Kuwait Need
Stronger Management and Administration,” June 30, 2011
DoD IG Report No. D-2011-047, “Improvements Needed in Contract Administration of
the Subsistence Prime Vendor for Afghanistan,” March 2, 2011
DoD IG Report No. D-2011-032, “Logistics Civil Augmentation Program Support
Contract Needs to Comply with Acquisition Rules,” January 7, 2011
DoD IG Report No. D-2011-014, “Weaknesses in Award Fees for the Broad Area
Maritime Surveillance Contract,” November 2, 2010
DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework of Reform,”
May 14, 2010
DoD IG Report No. D-2010-049, “U.S. Army Corps of Engineers’ Use of Award Fees on
Contracts in Iraq and Afghanistan,” April 1, 2010

Army
Army Audit Agency Report No. A-2011-0212-ALC, “Contract Requirements Definition:
Base Operations Support-U.S. Army Installation Management Command,”
September 22, 2011
Army Audit Agency Report No. A-2009-0132-ALL, “Contracting Operations: U.S.
Army Contracting Command Southwest Asia-Kuwait,” September 29, 2009
SIGIR
SIGIR Report No. SIGIR 08-009, “Appropriate Award Fee Conversion Scales Can
Enhance Incentive For Contractor Performance,” January 24, 2008



                                          27
Appendix C. Mitigating Potential
Organizational Conflict of Interest
The ACO raised the concern regarding a potential conflict of interest between the
QBOSS contractor and one of its subcontractors. Specifically, the ACO questioned the
relationship between the contractor and a subcontractor, who served as the host-country
sponsor for the QBOSS contractor. During the solicitation process, the contractor
provided a proposal disclosing their relationship with the subcontractor. According to the
proposal, the subcontractor was to provide sponsorship 6 for all personnel assigned to the
contract and provide the primary labor source for the foreign-national employees hired
under the contract.

Although the contracting officer was aware of the relationship between the contractor and
subcontractor, the contracting officer did not require the contractor to provide additional
information (such as mitigation plans) to make a determination of potential
organizational conflict of interest (OCI) and the need to mitigate the risk of potential OCI
before the award of the contract. The contracting officer stated that the Army determined
a mitigating plan was not necessary because the QBOSS contractor disclosed its
relationship with its subcontractor in the proposal. According to FAR Subpart 9.5,
“Organizational and Consultant Conflicts of Interest,” the contracting officer is
responsible to identify and evaluate potential OCI early in the acquisition process. The
contracting officer is also responsible to avoid, neutralize, or mitigate potential OCI prior
to contract award. However, the contracting officer for the QBOSS contract did not
perform such evaluations before the contract was awarded on March 11, 2010.

Based on the ACO’s concerns, on September 16, 2011, the ACO requested OCI
mitigation plans and non-disclosure agreements from the QBOSS contractor and
subcontractor. However, it was not until July 24, 2012, that a memorandum was issued
stating that ACC-RI reviewed the information and documents submitted by the contractor
and determined that there is no OCI under the QBOSS contract. ACC-RI evaluated the
relationship between the QBOSS contractor and subcontractor; however, it took
over 2 years for ACC-RI to make a determination on the potential OCI.




6
 As required by the contract, the contractor must obtain local (host-country) sponsorship for the purpose of
providing in-country legal representation, work visas, and resolution of other personal business or domestic
matters, in compliance with host nation (Qatar) labor laws.



                                                    28
Appendix D. Quick Reaction Memorandum
on Medical Services




                  29
30
31
32
33
Appendix E. Army Contracting Command-
Rock Island Responses to the Quick
Reaction Memorandum




                  34
35
Appendix F. Defense Contract Management
Agency Responses to the Quick Reaction
Memorandum




                   36
37
Army Materiel Command Comments




                  38
39
40
41
42
Army Medical Command Comments




                 43
44
45
46
Defense Contract Management Agency
Comments




                    47
48
49
50
